No. 20-254
In The

Supreme Court of the United States
KUANG-BAO OU-YOUNG,
Petitioner
v.
JOHN G. ROBERTS, JR,
Chief Justice of the United States,
et al.
Respondents

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

PETITION FOR REHEARING
Kuang-Bao P. Ou-Young
Petitioner Pro Se
1362 Wright Avenue
Sunnyvale, California 94087
(408) 234-2371
December 18, 2020

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.2, petitioner
Kuang-Bao P. Ou-Young respectfully petitions the
Court for rehearing of the order denying a prior
petition for certiorari. Petitioner filed the petition
for certiorari on August 24, 2020. This Court denied
said petition on November 23, 2020.
ARGUMENT
I. Denial of Certiorari Deprives Petitioner of
Substantive Civil Rights
Petitioner filed an employment discrimination
complaint against United States Postal Service
(“USPS”) with U.S. District Court for Northern
California (Case No. 10-cv-464-RS, “USPS /’) on
February 2, 2010. On June 10, 2011, U.S. district
judge Richard Seeborg summarily dismissed the
case. On March 25, 2013, this Court denied the
petition for certiorari to review the Ninth Circuit’s
upholding of the dismissal of USPS I. (Case No. 121018).
However, “all that a denial of a petition for a writ
of certiorari means is that fewer than four members
of the Court thought it should be granted, this
Court has rigorously insisted that such a denial
carries with it no implication whatever regarding
the Court’s views on the merits of a case which it
has declined to review.” Maryland v. Baltimore
Radio Show, 338 US 912, 919 (1950). Thus, said
denial of certiorari deprives petitioner of the First
Amendment right to petition the Government for a
redress of grievances.
-1-

“Review on a writ of certiorari is not a matter of
right, but of judicial discretion.” Hence the Court
routinely denies petitions for certiorari without a
hearing or oral argument. Nonetheless, “[i]n almost
every setting where important decisions turn on
questions of fact, due process requires an
opportunity to confront and cross-examine adverse
witnesses.” Goldberg v. Kelly, 397 US 254, 269
(1970). For this reason, the denial of certiorari
deprives petitioner of the Fifth Amendment right to
due process of law as well.
Because the 2013 denial of certiorari deprives
petitioner of substantive civil rights, a complaint
was filed against chief justice Roberts, former
associate justice Kennedy, as well as associate
justices Thomas, Breyer, Alito, Sotomayor, Kagan,
and others with Superior Court of California in the
County of Santa Clara on November 12, 2020 (Case
No. 20cv372913). The complaint is reproduced in
Appendix (“App.”) A.
It goes without saying that denial of certiorari in
this case - if sustained - would lead to petitioner
asserting the First Amendment right to petition the
Government for a redress of grievances and the
Fifth Amendment right to due process of law in
said state court as well.
II. Both Justice Kavanaugh and Justice Barrett
Should Disqualify Themselves from This Case
28 U.S.C. § 455(a) provides:
Any justice, judge, or magistrate judge of the
United States shall disqualify himself in any
-2-

proceeding in which his impartiality might
reasonably be questioned.
Being named as respondents, chief justice Roberts,
justice Breyer, and justice Alito took no part in the
consideration or decision of the petition for
certiorari in the present case.
Rule 35.3 states:
When a public officer who is a party to a
proceeding in this Court in an official capacity
dies, resigns, or otherwise ceases to hold
office, the action does not abate and any
successor in office is automatically substituted
as a party. ...
Following justice Kennedy’s retirement on July 31,
2018, the Senate confirmed justice Kavanaugh’s
nomination to this Court on October 6, 2018. With
justice Ginsburg’s passing on September 18 this
year, justice Barrett’s nomination was confirmed on
October 26. Since both justice Kennedy and justice
Ginsburg were respondents in this case, justice
Kavanaugh and justice Barrett should disqualify
themselves as well.
III. The Court Lacks a Quorum to Deny Certiorari
28 U.S.C. § 1 provides:
The Supreme Court of the United States shall
consist of a Chief Justice of the United States
and eight associate justices, any six of whom
shall consist a quorum.
As chief justice Roberts, justice Breyer, and justice
-3-

Alito have recused themselves from this case, so
should both justice Kavanaugh and justice Barrett.
Moreover, the pending state action names justice
Thomas, justice Sotomayor, and justice Kagan as
codefendants. Under the circumstances only justice
Gorsuch’s impartiality concerning the present case
could not be reasonably questioned. The Court
lacks a quorum to deny certiorari in this case.
CONCLUSION
According to the above reasons, the Court should
summarily remand the present case.
Respectfully submitted this 18th day of December
2020.

Kuang-Bao P. Ou-Young
Petitioner Pro Se

CERTIFICATE OF GOOD FAITH
The undersigned hereby certifies that this
Petition for Rehearing is restricted to the grounds
specified in Rule 44.2 of the Rules of the Supreme
Court and is presented in good faith and not for
delay.

Kuang-Bao P. Ou-Young
Petitioner Pro Se
-4-

APPENDIX A
KUANG-BAO P. OU-YOUNG
1362 Wright Avenue
Sunnyvale, California 94087
(408) 234-2371
kbou voung@vahoo. com
Plaintiff Pro Se
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
Case No. 20CV372913
COMPLAINT
DEMAND FOR JURY TRIAL
KUANG-BAO P. OU-YOUNG, )
)

Plaintiff,

)
)
)
)

vs.

COUNTY OF SANTA CLARA, )
JEFFREY F. ROSEN,
)
)
JOHN CHASE,
LAWRENCE E. STONE,
)
)
KAMALA D. HARRIS,
XAVIER BECERRA,
)
KIMBERLY MCCRICKARD, )
)
PHYLLIS J. HAMILTON,
)
RICHARD SEEBORG,
LUCY H. KOH,
)
EDWARD M. CHEN,
)
)
BETH LABSON FREEMAN,
-la-

WILLIAM H. ORRICK,
SUSAN Y. SOONG,
SIDNEY R. THOMAS,
MARY M. SCHROEDER,
BARRY G. SILVERMAN,
JOGH G. ROBERTS, JR.,
ANTHONY M. KENNEDY,
CLARENCE THOMAS,
STPHEN G. BREYER,
SAMEUL A. ALITO, JR.,
SONIA SOTOMAYOR,
ELENA KAGAN,
WILLIAM P. BARR,
and DAVID L. ANDERSON,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

PARTIES
1. Plaintiff Kuang-Bao P. Ou-Young is a
resident of Santa Clara County.
2. Defendant County of Santa Clara is a
charter county organized and existing under the
laws of the State of California.
3. Defendant Jeffrey F. Rosen is district
attorney (“DA”) of Santa Clara County.
4. Defendant John Chase is a deputy district
attorney (“DDA”) of Santa Clara County.
5. Defendant Lawrence E. Stone is assessor of
Santa Clara County.
6. Defendant Kamala D. Harris was attorney
general of California from January 3, 2011 until
she become a U.S. senator after the 2016 Senate
election.
-2a-

7. Defendant Xavier Becerra is attorney
general of California (“CAG”) succeeding former
California attorney general (“FCAG”) Harris.
8. Defendant Kimberly McCrickard is an
assistant to attorney general of California.
9. Defendant Phyllis J. Hamilton is chief judge
of U.S. District Court for northern California
(“district court”).
10. Defendant Richard Seeborg is a district
judge at the district court.
11. Defendant Lucy H. Koh is a district judge at
the district court.
12. Defendant Edward M. Chen is a district
judge at the district court.
13. Defendant Beth Labson Freeman is a district
judge at the district court.
14. Defendant William H. Orrick is a district
judge at the district court.
15. Defendant Susan Y. Soong is clerk of the
district court.
16. Defendant Sidney R. Thomas is chief judge of
U.S. Court of Appeals for the Ninth Circuit.
17. Defendant Mary M. Schroeder is a senior
circuit judge at the Ninth Circuit.
18. Defendant Barry G. Silverman is a circuit
judge at the Ninth Circuit.
19. Defendant John G. Roberts, Jr., is chief
justice of U.S. Supreme Court.
20. Defendant Anthony M. Kennedy was an
associate justice at U.S. Supreme Court until his
retirement on July 31, 2018.
21. Defendant Clarence Thomas is an associate
justice at U.S. Supreme Court.
22. Defendant Stephen G. Breyer is an associate
-3 a-

justice at U.S. Supreme Court.
23. Defendant Samuel A. Alito, Jr., is an
associate justice at U.S. Supreme Court.
24. Defendant Sonia Sotomayor is an associate
justice at U.S. Supreme Court.
25. Defendant Elena Kagan is an associate
justice at U.S. Supreme Court.
26. Defendant William P. Barr is U.S. Attorney
General (“AG”).
27. Defendant David L. Anderson is U.S.
attorney for northern California.
FACTUAL BACKGROUND
28. On February 2, 2010, plaintiff filed an
employment discrimination complaint against
United States Postal Service (“USPS”) with the
district court (Case No. 10-cv-464-RS, “USPS F).
Judge Seeborg summarily dismissed the case on
June 10, 2011.
29. On July 6, 2011, plaintiff appealed from the
dismissal of USPS I to the Ninth Circuit (Case No.
11-16653). In a unanimous decision, judge Thomas,
judge Schroeder, and judge Silverman affirmed the
dismissal of USPS Ion July 20, 2012.
30. On May 31, 2012, plaintiff brought a civil
case against four postal employee defendants in
USPS I to the district court (Case No. 12-cv-2789LHK, “USPS IF). Judge Koh dismissed the cse on
November 9, 2012.
31. On February 12, 2013, plaintiff petitioned
U.S. Supreme Court for certiorari to review the
Ninth Circuit’s upholding of the dismissal of USPS
-4a-

/ (Case No. 12-1018). The U.S. Supreme Court
denied the petition on March 25, 2013.
32. On September 25, 2013, plaintiff filed a civil
action with the district court based on USPS II
(Case No. 13-cv-4442-EMC, “USPS IV). Judge
Chen declared plaintiff a vexatious litigant and
dismissed USPS IV on December 20, 2013.
Moreover, the order subject plaintiffs further
complaints to pre-filing review by the general duty
judge.
33. On June 10, 2014, plaintiff brought a
complaint to the district court (Case No. 14-mc80174-BLF, “Pre-filing Review I’). Judge Freeman
dismissed the case on July 8, 2014.
34. On June 15, 2016, plaintiffs spouse
transferred her interest in their residence to
plaintiff. Two days later, DA Rosen sent a letter to
plaintiffs spouse questioning if the transfer
represented a real estate fraud. Santa Clara
County Assessor’s Office then terminated plaintiffs
homeowners’ exemption for the ensuing tax years.
35. On October 7, 2016, plaintiff submitted his
Citizen’s Second Crime Report to both California
Attorney General’s Office and Santa Clara County
District Attorney’s Office. Assistant McCrickard
replied to the crime report on October 18, 2016,
declining to take action. DDA Chase returned said
crime report to plaintiff on August 24, 2017, taking
no action either.
36. On February 3, 2017, Santa Clara County
filed an action with the district court against the
-5 3.”

Trump administration (Case No. 17-cv-514-WHO,
“Sanctuary County’). Based on his Citizen’s Second
Crime Report, plaintiff moved to intervene in the
case on March 29, 2017. Judge Orrick denied the
motion to intervene on April 3, 2017.
37. On October 17, 2019, plaintiff filed a case
with this Court against assessor Stone, Santa
Clara County, and others (Case No. 19cv356670).
The U.S. attorney’s office for northern California
(“USAO”) removed the case to the district court on
October 25, 2019 (Case No. 19-cv-7000-BLF,
“County /’). Judge Freeman then dismissed the
action on February 26, 2020.
38. On August 20, 2020, Santa Clara County
District Attorney’s Office instituted a criminal
action against James Jensen, Harpaul Nahal,
Michael Nichols, and Christopher Schumb at this
Court (Case No. C2010724, “Sheriffs Election”) due
to their alleged criminal offenses in fundraising for
the 2018 re-election of sheriff Laurie Smith.
39. On October 28, 2020, plaintiff delivered a
complaint based on County I and his Citizen’s
Second Crime Report to the district court against
FCAG Harris, assistant McCrickard, Santa Clara
County, DA Rosen, DDA Chase, and assessor
Stone. Thus far, the clerk’s office of the district
court has failed to file the case.
FIRST CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Seeborg
cl. On June 10, 2011, judge Seeborg summarily
-6a-

dismissed USPS I, without affording plaintiff an
opportunity to confront or cross-examine adverse
witnesses, 1 28. Consequently, judge Seeborg has
denied plaintiff the First Amendment right to
petition the Government for a redress of
grievances, due process of law under the Fifth and
Fourteenth Amendments, and the Seventh
Amendment right to a jury trial.
SECOND CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Thomas, judge Schroeder,
and judge Silverman
c2. On July 20, 2012, judge Thomas, judge
Schroeder, and judge Silverman affirmed the
dismissal of USPS / without oral argument, f 29.
Thus, judge Thomas, judge Schroeder, and judge
Silverman have deprived plaintiff of the First
Amendment right to petition the Government for a
redress of grievances, due process of law under the
Fifth and Fourteenth Amendments, and the
Seventh Amendment right to a jury trial.
THIRD CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Koh
c3. On November 9, 2012, judge Koh dismissed
USPS //without a hearing or oral argument, % 30.
Therefore, judge Koh has denied plaintiff the First
Amendment right to petition the Government for a
redress of grievances, due process of law under the
Fifth and Fourteenth Amendments, and the
Seventh Amendment right to a jury trial.
-7 cl-

FOURTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against chief justice Roberts, justice Kennedy,
justice Thomas, justice Alito, justice Sotomayor,
and justice Kagan
c4. On March 25, 2013, the U.S. Supreme Court
denied plaintiffs petition for a writ of certiorari to
review the Ninth Circuit’s upholding of the
dismissal of USPS /, ^ 31. In doing so, chief justice
Roberts, justice Kennedy, justice Thomas, justice
Alito, justice Sotomayor, and justice Kagan have
deprived plaintiff of the First Amendment right to
petition the Government for a redress of
grievances, due process of law under the Fifth and
Fourteenth Amendments, and the Seventh
Amendment right to a jury trial.
FIFTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Chen
c5. On December 20, 2013, judge Chen declared
plaintiff a vexatious litigant and dismissed USPS
IV without a hearing or oral argument, f 32.
Therefore, judge Chen has denied plaintiff the First
Amendment right to petition the Government for a
redress of grievances, due process of law under the
Fifth and Fourteenth Amendments, and the
Seventh Amendment right to a jury trial.
SIXTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Freeman
c6. On July 8, 2014, judge Freeman dismissed
-8a.-

Pre-filing Review I without a hearing or oral
argument, SI 33. In doing so, judge Freeman has
deprived plaintiff of the First Amend right to
petition the Government for a redress of
grievances, due process of law under the Fifth and
Fourteenth Amendments, and the Seventh
Amendment right to a jury trial.
SEVENTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against Santa Clara County and assessor Stone
cl. After plaintiffs spouse transferred her
interest in their residence to plaintiff on June 15,
2016, Santa Clara County Assessor’s Office has
terminated plaintiffs homeowners’ exemption for
the ensuing tax years, ^ 34. Thus, Santa Clara
County and assessor Stone have denied plaintiff
the Fourth Amendment right against unreasonable
seizures and due process of law under the
Fourteenth Amendment under color of Section 63 of
Revenue and Taxation Code.
EIGHTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against FCAG Harris, assistant McCrickard,
DA Rosen, and DDA Chase
c8. Neither California Attorney General’s Office
nor Santa Clara County District Attorney’s Office
has initiated any investigation based on the
October 7, 2016 Citizen’s Second Crime Report by
Plaintiff, *1 35. Accordingly, FCAG Harris, assistant
McCrickard, DA Rosen, and DDA Chase have
denied plaintiff the First Amendment right to
~9 ci-

petition the Government for a redress of grievances
as well as due process of law and equal protection
of the laws under the Fourteenth Amendment
under color of Section 12524 of Government Code.
NINTH CAUSE OF ACTION
CONSTITUTIONAL VIOLATIONS
against FCAG Harris, DA Rosen,
and assessor Stone
c9. Due
to her violation of plaintiffs
constitutional rights as set for the in f c8, FCAG
Harris lacks qualification to serve as a senator
from California after the 2016 Senate election. Nor
is she qualified to become Vice President of U.S.
after the presidential election this year. For the
same reason, both DA Rosen and assessor Stone
are disqualified to assume office after their 2018
uncontested re-elections.
TENTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Orrick
clO. On April 3, 2017, judge Orrick denied
plaintiffs motion to intervene in Sanctuary County
without a hearing or oral argument, f 36. In doing
so, judge Orrick has deprived plaintiff of the First
Amendment right to petition the Government for a
redress of grievances and due process of law under
the Fifth and Fourteenth Amendments.

-10a-

ELEVENTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against judge Freeman and U.S. attorney Anderson
ell. On October 25, 2018, USAO removed
County I from this Court to the district court.
Judge Freeman dismissed the action without a
hearing or oral argument on February 26, 2020, <I
37. Thus, both judge Freeman and U.S. attorney
Anderson have denied plaintiff the First
Amendment right to petition the Government for a
redress of grievances, due process of law under the
Fifth and Fourteenth Amendments, and the
Seventh Amendment right to a jury trial.
TWELFTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against CAG Becerra, DA Rosen, and DDA Chase
cl2. CAG Becerra has supported Santa Clara
County District Attorney’s Office in Sherriffs
Election, H 38, so as to sustain DA Rosen and DDA
Chase’s violation of plaintiffs constitutional rights
as set forth in 1 c8. Therefore, CAG Becerra, DA
Rosen, and DDA Chase have deprived plaintiff of
the First Amendment right to petition the
Government for a redress of grievances as well as
due process of law and equal protection of the laws
under the Fourteenth Amendment under color of
Section 12524 of Government Code.
THIRTEENTH CAUSE OF ACTION
CIVIL RIGHTS VIOLATION
against Judge Hamilton and clerk Soong
cl3. The clerk’s office of the district court has yet
-lla-

to file plaintiffs complaint against FCAG Harris,
assistant McCrickard, Santa Clara County, DA
Rosen, DDA Chase, and assessor Stone delivered
on October 28, 2020,
39. Accordingly, judge
Hamilton and clerk Soong have denied plaintiff the
First Amendment right to petition the Government
for a redress of grievances and due process of law
under the Fifth and Fourteenth Amendments.
REQUEST FOR RELIEF
WHEREFORE, plaintiff respectfully requests
that the Court enter judgment against all
defendants and provide plaintiff with the following
relief:
1. A declaratory judgment that defendants
have violated plaintiffs constitutional rights as set
forth in the first through eighth causes of action as
well as the tenth through thirteenth causes of
action.
2. A declaratory judgment that FCAG Harris is
disqualified to serve as a U.S. senator from
California or as an executive officer of the United
States.
3. A declaratory judgment that neither DA
Rosen nor assessor Stone is qualified to assume
office regardless of their 2018 uncontested reelections.
4. Monetary damages in the amount of
$2,000,000,000 against Santa Clara County,
$100,000,000 against DA Rosen, $50,000,000
against DDA Chase, $100,000,000 against assessor
-12a-

Stone, $2,000,000,000 against FCAG Harris,
$2,000,000,000 against CAG Becerra, $20,000,000
against
assistant McCrickard,
$400,000,000
against judge Hamilton, $200,000,000 each against
judge Seeborg, judge Koh, judge Chen, judge
Freeman, and judge Orrick, $50,000,000 against
clerk Soong, $800,000,000 against judge Thomas,
$400,000,000 each against judge Schroeder and
judge Silverman, $4,000,000,000 against chief
justice Roberts, $2,000,000,000 each against justice
Kennedy and justice Breyer, $1,000,000,000 each
against justice Thomas, justice Alito, justice
Sotomayor, and justice Kagan, and $200,000,000
against U.S. attorney Anderson.
5. Monetary punitive damages
defendants except AG Barr.

against

all

6. An order referring all defendants except
himself to AG Barr or his successor for criminal
prosecution under 18 U.S.C. § 242.
7. Plaintiffs reasonable costs and expenses of
this action.
8. All other further relief to which plaintiff may
be entitled.

"133,**

DEMAND FOR JURY TRIAL
Plaintiff hereby demands a trial by jury on all
issues for which a right to jury trial exists.
Respectfully submitted this 12th day of November
2020.

Kuang-Bao P. Ou-Young
1362 Wright Avenue
Sunnyvale, California 94087
(408) 234-2371
kbouvoung@vahoo.com
Plaintiff

-14a-

